CERTIFICATE OF COMPLAINCE
I, Haider Salah Abdulrazzak, proceeding pro se and as required by USCS Supreme
Ct. R. 44, that this Petition for Rehearing is restricted to “intervening circumstances of a
substantial or controlling effect or to substantial grounds not previously presented”.
I further certify that this Petition for Rehearing is presented in good faith and not
for delay.
Respectfully Submitted.
Dated this

day of

,2021.

Haider Salah Abdulrazzak, # 04373
Mike Durfee State Prison
1412 Wood St.
Springfield, SD 57062-2238
Petitioner/ Pro Se

